   Office of Inspector General
       Audit Report


DOT ESTABLISHED TIMELY CONTROLS FOR
  THE TIGER DISCRETIONARY GRANTS
PROGRAM, BUT OPPORTUNITIES EXIST TO
       STRENGTHEN OVERSIGHT
         Department of Transportation


         Report Number: MH-2012-188
        Date Issued: September 20, 2012
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: DOT Established Timely Controls for                Date:    September 20, 2012
           the TIGER Discretionary Grants Program, But
           Opportunities Exist To Strengthen Oversight
           Department of Transportation
           Report No. MH-2012-188

  From:                                                            Reply to
                                                                   Attn. of:   JA-40
           Joseph W. Comé
           Assistant Inspector General for
              Highway and Transit Audits

    To:    Under Secretary of Transportation for Policy

           The Transportation Investment Generating Economic Recovery (TIGER)
           Discretionary Grants Program provides funding for capital investments to improve
           the Nation's highway, bridge, public transportation, rail, and port infrastructure.
           The TIGER program is unlike the Department of Transportation's (DOT)
           traditional, formula-based grants because it uses competitive discretionary grants
           to fund infrastructure projects. Congress initially appropriated $1.5 billion through
           the American Recovery and Reinvestment Act (ARRA) of 2009 1 and charged
           DOT with implementing the new program within 1 year. Since its establishment,
           the TIGER program has grown to over $3.1 billion through additional
           appropriations. The Office of the Secretary of Transportation (OST) administers
           the program and relies on four Operating Administrations (OA)—the Federal
           Highway Administration (FHWA), the Federal Railroad Administration (FRA),
           the Federal Transit Administration (FTA), and the Maritime Administration
           (MARAD)—for project-level oversight.

           Our objective was to assess OST's and the OAs' efforts to provide oversight of
           TIGER projects with a focus on the ARRA-funded portion of the program.
           Specifically, we evaluated the effectiveness of (1) OST's management and
           oversight of the TIGER program, including the performance measures for
           determining economic and transportation-related impacts and (2) the OAs' policies
           and practices established for overseeing their respective TIGER projects.

           1
               Pub. L. No. 111-5 (2009).
                                                                                 2


To conduct our audit work, we interviewed OST and OA Headquarters and
regional personnel; reviewed policies, procedures, and practices; and analyzed
program documentation. We statistically sampled 14 of 51 projects across the OAs
with TIGER grant responsibilities and conducted an in-depth review of them. We
also made site visits to review projects under construction and met with grantee
and contractor personnel to gain their perspectives on the TIGER program. We
conducted this audit in accordance with generally accepted Government auditing
standards. Exhibit A details our scope and methodology and exhibit B lists the
projects in our sample.

RESULTS IN BRIEF
Shortly after ARRA's passage, OST developed TIGER program policies that
generally adhered to best practices for grant management. However, we identified
vulnerabilities in four areas: (1) reviewing and finalizing grant agreements
between the Department and grantees, (2) monitoring OAs' oversight of individual
projects, (3) assessing OAs' oversight risks, and (4) measuring performance. For
example, nearly one-third of the grant agreements for the 14 projects in our sample
had unclear project milestones and scopes of work, which hinder OST’s ability to
hold grantees accountable for meeting milestones and achieving expected results.
Also, while OST established reporting and oversight mechanisms for the OAs and
grantees, OST lacks a formal process for documenting decisions and ensuring
follow up on corrective actions by OAs. Further, OST’s TIGER program risk
assessments focused on OST activities, resources, and policies for administering
the program, but did not fully recognize risks within the OAs, which bear most of
the burden of day-to-day oversight of TIGER projects. Finally, while OST
required grantees to set performance measures for TIGER projects, it has not fully
established a process for evaluating program performance based on project
outcomes. For example, 42 of 53 performance measures in the grant agreements
for our sample of 14 projects were not outcome-based, thereby limiting OST’s
ability to describe the extent to which projects achieved expected benefits. Since
subsequent appropriations for TIGER have more than doubled the program's
funding, it is important that OST take timely actions to make oversight
improvements.

OAs differed in their approach, experience, and capability to oversee the TIGER
grantees and projects. FHWA and FTA had fully developed grant management
policies in place when they assumed oversight of TIGER projects. FRA and
MARAD only recently established grant management policies. However, they are
still working on implementing standard oversight practices, such as routine site
visits and verification of grantee information. This is occurring even as ARRA-
funded TIGER projects are under construction and OAs have additional oversight
responsibilities for new TIGER projects. Further, we found that FHWA and FRA
                                                                                  3


did not fully coordinate to leverage FRA's experience and technical expertise on
FHWA administered rail projects. Neither agency provided evidence of ongoing
coordination on technical issues related to project design and construction
monitoring. FRA's limited involvement increases the risk of grantees not
complying with safety and other rail standards, potentially resulting in a need for
costly and disruptive corrective actions. The TIGER program emphasized the
selection of projects with intermodal benefits, which highlights the importance of
ensuring effective coordination between OAs in future rounds of TIGER funding.

We are making a series of recommendations to strengthen OST's and the OAs'
oversight of the continuing TIGER program.

BACKGROUND
Congress established the TIGER Discretionary Grant Program by appropriating
$1.5 billion in ARRA funding for capital investments in surface transportation.
OST’s Under Secretary for Policy has overall responsibility for the program. The
goals of the TIGER program are to create and preserve jobs, promote economic
recovery, and invest in infrastructure that has long-term economic benefits. DOT
received more than 1,400 applications in response to the initial availability of
funds and selected 51 grantees. In accordance with ARRA, DOT obligated the
TIGER funding to the grantees by September 30, 2011. Federal law governing
discretionary grants requires that all TIGER funds be expended by
September 30, 2016.

The Department's policy for administering the TIGER program requires OST to
monitor the implementation of the program; assess the performance of each of the
grants; and approve major decisions on funding, coordination, and reporting. The
OAs are responsible for overseeing each grant at the project level, including
reporting monthly performance and financial information to OST, and ensuring
the close-out of completed projects. TIGER program policy also requires that
grant recipients monitor award activities, maintain financial records, track project
status information, submit quarterly progress reports to OST, and collect project
performance measurement data. OST developed site visit guidance that requires
OAs to perform a minimum of one site visit for each TIGER project, and OST to
perform limited on-site monitoring based on risk-based selection criteria.

From fiscal year 2010 to fiscal year 2012, Congress appropriated funds for
additional rounds of TIGER grants (the initial ARRA round is often referred to as
TIGER I). In 2010, Congress provided $528 million for 42 capital projects and 33
planning projects (TIGER II). In 2011, Congress provided $527 million for 46
capital projects (TIGER III) and $500 million in 2012 (TIGER IV).
                                                                                   4


OST ESTABLISHED THE TIGER PROGRAM AND POLICIES IN A
TIMELY MANNER, BUT VULNERABILITIES EXIST IN PROGRAM
OVERSIGHT PROCESSES
While OST quickly established TIGER program policies and responsibilities, it
does not have formal processes to ensure consistent, rigorous reviews of grant
agreements before they are finalized and to track and follow up on OAs' corrective
actions to address project concerns. OST also has not fully assessed risks related to
the OAs' oversight of TIGER projects, as Office of Management and Budget
(OMB) ARRA guidance requires, or fully established a process for measuring
program performance, based on program outcomes.

OST Developed Policies for the Administration and Oversight of the
TIGER Program in a Timely Manner
Within 1 year of ARRA's passage, OST created the TIGER program, selected
grantees, and developed a program policy that generally adhered to best practices
in grant management. The policy included a program structure that defined the
roles and responsibilities of OST and the OAs, established methods to collect and
report performance information, and created a plan to oversee and monitor the
program and each grant. OST coordinated with FHWA, FRA, FTA, and MARAD
to evaluate applications and subsequently selected 51 projects to receive
$1.5 billion in TIGER funds. Creating the TIGER program was a challenge for
OST because it had never managed a grant program of this magnitude.

OST Lacks a Consistent Process for Reviewing and Finalizing TIGER
Grant Agreements
While agreements for 10 of the 14 projects in our sample had sufficient scope and
detail, 4 lacked key elements to hold grantees accountable for achieving promised
benefits and complying with agreed-to budgets and schedules. This is due in part
to the lack of a formal OST review process with tools, such as a standard checklist
and a method to document OST's review and approval of agreements. Such a
process would better detect and prevent inconsistencies and missing information in
the grant agreements. Problems we found included conflicting milestone dates
within the same agreement, a lack of clear milestones to track project progress,
and imprecise information on how TIGER funds would be used in relation to other
sources of project funding. For example:

 • The grant agreements for the Port of Gulfport Rail Improvement project in
   Gulfport, Mississippi; the Indianapolis Bicycle and Pedestrian Network in
   Indianapolis, Indiana; and Quonset Wind Energy and Surface Transportation,
   in North Kingston, Rhode Island, included conflicting schedules and dates. In
   one instance, the project schedule (which identifies an activity timeline) in the
                                                                                                               5


      Quonset grant agreement has the start of construction for one pier occurring
      4 months later than the date in the agreement's milestone schedule (which
      identifies key deliverables).

    • The project and milestone schedules in the Port of Gulfport Rail Improvement
      grant provided only an estimate for completing the entire project. Unlike other
      TIGER grant agreements, it did not provide intermediate milestones to assess
      progress in ensuring timely completion of the project, such as the completion
      dates for each construction phase—design, bid, and construction.

    • The grant agreement for the Bella Vista project in Arkansas and Missouri did
      not specify items that TIGER funds will pay for, even though TIGER program
      policy requires that grantees outline the sources and uses of all project funds. 2

In addition, OST did not ensure that OAs added project performance measures to
grant agreements for 6 of the 14 TIGER projects in our sample within the required
timeframe. OST's policy requires that grantees add performance measures to each
grant agreement within 60 days of their signing. According to OST and OA
program officials, performance measures had been added for all but 2 of the 51
TIGER projects by April 2012.

Agreements with inconsistent or missing information do not adhere to best
practices and grant principles developed by Federal, State, and local audit
organizations—all of which call for grant agreements that include clear terms,
conditions, and provisions to hold grantees accountable for achieving results. 3
Similarly, OMB Circular A-102 requires that grantees outline their approach for
achieving results, including a schedule of accomplishments and expected
completion dates. 4 Without a systematic OST process for reviewing grant
agreements that adheres to best practices and OMB requirements, there is greater
potential that future TIGER grant agreements will lack key elements necessary to
ensure effective oversight and promote grantee accountability for results.

OST Does Not Have a Formal Process To Document and Monitor the
Operating Administrations' Oversight of TIGER Projects
OST has not formalized a process to follow up on major decisions related to
funding and project performance, corrective actions, overall program

2
    DOT's Notice of Funding Availability for Supplemental Discretionary Grants for Capital Investments in Surface
    Transportation Infrastructure Under the American Recovery and Reinvestment Act, 74 FR 28755, June 17, 2009,
    requires grantees to provide the sources and uses of all TIGER project funds.
3
    "Guide to Opportunities for Improving Accountability," Grant Accountability Project, October 2005; U.S.
    Department of Transportation's Financial Assistance Guidance Manual; OMB, “Updated Implementing Guidance for
    the American Recovery and Reinvestment Act of 2009,” April 3, 2009; and TIGER policies and procedures.
4
    OMB Circular A-102, "Grant and Cooperative Agreements with State and Local Governments."
                                                                                                                        6


expenditures, and project information from grantees. OST receives program and
project performance information from the OAs and grantees through biweekly
meetings with the OAs, monthly management reports from OAs describing issues
associated with individual projects, quarterly reports from grantees, and site visits.
Yet, OST does not have a systematic process to document key decisions it and the
OAs make on how to address project issues or to ensure effective follow up on
corrective actions that OAs have taken or plan to take. Instead, OST stated that it
tracks the status of corrective actions through more informal discussions and
emails with OAs and grantee officials, but OST was unable to provide copies of
requested emails for the 14 projects in our sample. GAO guidance stipulates that
key internal controls include the communication and documentation of relevant
and reliable information, and effective, ongoing monitoring of agency activities as
a basis to hold those responsible for administration of the program accountable for
results. 5

Further, while the TIGER program office tracks expenditures on individual
projects, it does not have overall expenditure targets for the program or a plan to
assess the overall progress of the TIGER program in spending Federal dollars as
quickly as possible. As of February 2012, the program had expended more than 32
percent of the first round of TIGER funding. OST has until September 2016, 6 to
fully expend ARRA funds, but has not demonstrated that it has a process to
promptly identify and mitigate issues that could delay the timely expenditure of
funds.

The ability to monitor and keep projects on track is important given the
challenging priorities for timely project completion set forth in ARRA and the
delays that have developed in some projects underway. ARRA specified that
TIGER projects scheduled for completion by February 2012 be given priority,
although OST officials stated that other ARRA priorities, such as ensuring that
projects have a significant impact, did not lend themselves to quick
implementation. The difficulty with meeting ARRA's quick implementation
priority is illustrated by the fact that only 11 of the 51 grant agreements contained
project schedules that would meet the February 2012 priority goal. Most of the
remaining 39 projects are scheduled to be completed by 2014 and one is due for
completion in February 2016—7 months ahead of the September 30, 2016,
deadline for spending the first round of TIGER funding.

5
    According to GAO's "Internal Control and Management Tool," key transactions should be recorded promptly to
    maintain their relevance and value to management in controlling operations and making decisions. GAO-01-1008G,
    August 2001.
6
    31 U.S.C. 1552 requires that all discretionary grant funds be spent before September 30 of the fifth fiscal year after
    the period of availability for obligation of a fixed appropriation account ends. In the case of TIGER grants, this date
    is September 30, 2016. On September 15, 2011, OMB issued a memorandum that directed Federal agencies to
    complete ARRA projects by September 30, 2013, with certain exceptions. Currently, OST is discussing with OMB
    whether this memorandum applies to the TIGER program and whether OST needs to apply for a waiver.
                                                                                                                  7


As of March 2012, grantees had not closed out any of the TIGER projects and
only seven had fully expended their funding. In addition, the latest data we
received from OST shows that 8 of 51 TIGER projects face actual or potential
schedule delays. 7 OST officials stated that they could address scheduling issues as
needed by making inquiries to the OAs. However, they had no formal process in
place to track how the OAs and grantees were addressing delays across all
projects. Given that the projects will be underway for several years and staff
turnover may occur within that timeframe, the lack of a formal systematic process
increases the risk that grantees will not be held accountable for meeting agreed-to
schedules.

Initially, OST's delayed initiation of the Paperwork Reduction Act (PRA) process
hindered its ability to receive timely and relevant information from grantees—a
challenge the program will continue to face with additional rounds of TIGER
funding in different legislation. PRA requires OST to get approval from OMB to
receive quarterly reports and performance information directly from grantees—a
process that can take over a year to complete. OST did not initiate the process to
obtain OMB approval until February 2011, approximately 1 year after the
Secretary selected projects for the TIGER program. OMB approved OST’s request
for this information in July 2011, well after construction had begun on 40 of the 51
TIGER projects. Because TIGER depends on annual congressional appropriations,
OST officials will face the challenge of obtaining PRA approval with each new
appropriation of TIGER funding.

OST’s Analysis of Program Risk Did Not Adequately Assess OAs'
Oversight Capabilities
While OST completed risk assessments of the TIGER program in 2009 and 2011,
it did not address risks specific to each OA’s ability to effectively oversee TIGER
projects in addition to their existing responsibilities. OMB requires agencies to
identify, prioritize, and mitigate agency and program risks of new programs
receiving ARRA funding. 8 OST's ARRA risk assessment focused on OST
activities, resources, and policies for administering the program, but did not fully
recognize risks within the OAs, which bear most of the burden of day-to-day
oversight of TIGER projects.

Likewise, the OAs did not fully assess their own risks related to the TIGER
program because they considered TIGER projects, which are generally smaller
than their other projects, to be less risky. For example, FHWA and FTA officials
stated that their agencies manage large grant programs, and the dollar value of the
TIGER projects were not significant enough for them to address in their ARRA
7
    The project performance data are current as of January 30, 2012. We requested, but did not receive more current
    information from OST.
8
    OMB "Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009," April 3, 2009.
                                                                                                       8


risk assessments. Similarly, oversight risks at FRA and MARAD have not been
fully assessed. OST's 2009 risk assessment did not address the lack of grant
management policies at FRA and MARAD when the TIGER program began.
Although OST's 2009 risk assessment recognized the OAs' need for TIGER
dedicated resources, it did not specifically address the significant impact of the
program's demands on FRA's staffing. In addition to the TIGER program, FRA
has the responsibility to manage the new, largely ARRA-funded multibillion
dollar High-Speed Intercity Passenger Rail Program. FRA's 2009 risk assessment
did not focus on TIGER program risks, but instead addressed the risks of the high
speed rail program. According to FRA, its resources to manage TIGER grants are
strained and would be insufficient to perform oversight if additional TIGER
projects were assigned to the agency, which is now the case. FRA now has the
responsibility to administer an additional 13 projects from the second and third
rounds of TIGER. 9 MARAD's risk assessment process was similarly insufficient.
For example, its risk mitigation plan was modeled after a FHWA plan and
references to nonapplicable FHWA programs remained in the document,
indicating a lack of attention to risks specific to MARAD's capability to manage
the TIGER program.

Without robust risk assessments, OST does not have an effective mechanism to
identify OA risks that could impede the efficient and effective implementation of
the TIGER program and to guide the OAs in mitigating those risks. TIGER-
specific risk assessments at the OA level have become more critical as Congress
continues to fund subsequent rounds of TIGER projects and as OAs' oversight
responsibilities increase.

OST Proactively Established Performance Measures for TIGER
Projects, But Is Not Positioned To Fully Assess Overall Program
Performance
ARRA did not require performance measures, but OST took the initiative to
require each TIGER grantee to develop performance plans that describe the
projected outcomes for each project. However, OST has not instituted a process to
effectively follow through on its plan to assess the program's overall performance.
Specifically, OST has not ensured that all projects set outcome-based performance
measures and related targets necessary to make meaningful comparisons between
projects. To assess the program's overall outcomes, OST is faced with the
challenge of aggregating performance data across the 51 diverse projects that
received ARRA funding. The absence of a more systematic process for developing
performance measures will continue to hinder OST’s ability to assess the
outcomes of the subsequent TIGER projects funded through non-ARRA
legislation.
9
    TIGER II assigned an additional seven projects to FRA, and TIGER III assigned an additional six.
                                                                                                                     9


Despite OST's emphasis on assessing performance and the availability of
considerable guidance on best practices, 10 our review of grant agreements for our
sample of 14 projects found that most measures were not outcome based. Only 11
of 53 measures in the grant agreements for the 14 projects in our sample were
long-term outcome measures, such as improvement of bridge and road
conditions. 11 The remaining 42 measures focused on project outputs. Outcome
measures compare the results of a program activity to its intended purpose;
whereas output measures record the quantity and quality of an activity or effort.
The lack of outcome measures hinders OST's ability to use performance
information to describe the extent to which projects achieve the expected benefits.
For example, MARAD's Quonset Wind Energy and Surface Transportation project
in Rhode Island established measures that count volumes of container traffic,
cargo throughput at the port, and improvements in revenue. The project's measures
do not clearly link to expected program outcomes listed in the project's grant
application, such as state of good repair or sustainability. According to OST, it
will eventually use the output information grantees collect to report on each
project's outcomes. However, OST is still developing the methodology needed to
translate the output measures into long-term outcomes.

Moreover, OST does not have performance targets to assess the impacts of the
TIGER projects on the Nation's transportation system. None of the performance
measurement plans for the 14 projects in our sample included performance targets
or goals necessary to gauge project success. For example, the performance
measurement plan for FRA's New Bedford, Massachusetts, project includes a
measure of the number of rail cars passing over three bridges. The bridges were
constructed over 100 years ago and due to structural deficiencies could allow
trains to cross at a maximum speed of only 5 miles per hour. However, the
performance management plan does not specify targets for the number of rail cars
and the speed at which trains are expected to pass over the reconstructed bridges.

Finally, TIGER program policy states that OST will complete an analysis of the
long-term benefits of the TIGER program, but OST has not yet determined how it
will do so. Although it plans to aggregate performance information from a diverse
set of projects designed to achieve a variety of outcomes, OST has not developed
the specific methodology necessary to carry out this task. OST prepared a table
showing the types of measures that it would aggregate into one of four
classifications—usage, operations, safety, and state of good repair (see exhibit C);
but it is still developing the process for combining these disparate measures. In
addition, OST acknowledged that it might be years before the benefits of the
10
     "Guide to Opportunities for Improving Accountability," Grant Accountability Project, October 2005; and "Reporting
     Performance Information: Suggested Criteria for Effective Communication," Governmental Accounting Standards
     Board, October 2003.
11
     Of the remaining 42 measures, 38 were output measures, such as passenger boarding or traffic counts, and 4 did not
     fit the definition of either type of measure.
                                                                                                                     10


projects can be quantified and reported, even as subsequent rounds of TIGER
grants were funded.

LIMITATIONS EXIST IN THE OPERATING ADMINISTRATIONS'
OVERSIGHT OF TIGER PROJECTS
OAs differed in their approach, experience, and capability to oversee the TIGER
grantees and projects. FRA and MARAD did not have grant management policies
in place when they assumed oversight of TIGER projects. This was in contrast to
FHWA and FTA, which had fully developed grant oversight policies and
practices. 12 While FRA and MARAD have since established grant management
policies, they are still implementing standard oversight practices for grants, even
as ARRA-funded TIGER projects are under construction and these agencies are
assuming oversight responsibilities for additional TIGER projects. In addition,
FHWA and FRA did not fully coordinate to leverage FRA's technical experience
and expertise during FHWA’s implementation of rail projects. 13

FRA and MARAD Have Not Fully Implemented Systematic Oversight
Practices
FRA and MARAD had not administered significant grant programs and
consequently had to develop new policies to oversee TIGER grantees after final
selection of individual projects. FRA and MARAD are still implementing their
standard oversight practices. MARAD finalized its grant management policy in
May 2011, and FRA issued its grant management policy in March 2012. 14 Both
MARAD’s and FRA’s grant management policies were finalized well after the
award of TIGER grants and after many projects had begun expending funds. 15

FRA and MARAD have relied primarily on informal communications with
grantees to provide oversight, such as phone calls and emails, as interim measures
to verify grantee information on the status of projects while they formalize
standard practices. As of February 2012, FRA had not conducted a TIGER project
12
     FTA employs Project Management Oversight Contractors (PMOC) to oversee each TIGER project. The PMOCs
     make periodic site visits to projects, or may be located on-site for large projects. They prepare monthly reports and
     quarterly project reviews that alert regional offices of issues and propose corrective recommendations. FHWA
     performs process reviews to assess State DOT practices and uses national review team assessments to focus on
     individual TIGER projects. FHWA's Office of Federal Lands Highway oversees its projects directly.
13
     Given FRA’s resource constraints and FHWA’s experience with surface transportation projects, project oversight
     and delivery responsibilities were transferred to FHWA for 4 of the 6 TIGER rail projects. Therefore, on
     May 25, 2010, the National Gateway, Crescent Corridor, Colton Crossing, and Appalachian Short Line TIGER rail
     projects were transferred to FHWA.
14
     These policies include standard operating practices for grant management, including financial oversight, project
     monitoring and reporting, and the roles and responsibilities of its staff.
15
     MARAD’s Discretionary Grants Administration Manual is dated May 25, 2011, and FRA's Office of Railroad Policy
     and Development Grant Management Manual is dated March 2012. The award of the TIGER grants was announced
     on February 16, 2010, and project status reports show expenditures occurring well before policy documents were
     finalized.
                                                                                                                     11


site visit. MARAD had conducted site visits to six of its seven TIGER projects,
but in many cases MARAD’s site visit reports did not contain all the elements
outlined in its site visit report guidance. 16 For example, the September 27, 2011,
site visit report for the Green Trade Corridor project did not document interviews,
identify the materials reviewed, nor explain how MARAD assessed grantee
compliance with the requirements detailed in its site visit checklist. Further, the
report did not state whether the project was on schedule or whether funds were
being spent appropriately, although these were identified as purposes of the site
visit. Because FRA and MARAD have received oversight responsibility for
additional TIGER grants through the TIGER II and III selection processes, the
absence of systematic oversight practices increases the risk that future TIGER
projects will not be constructed on time, within budget, and in accordance with
grant terms.

FRA has struggled to balance its TIGER responsibilities with its separate mandate
to create a new, multibillion dollar high speed rail program. Its limited staff and
the increasing demand for oversight of large dollar, high speed rail grants creates a
challenge for FRA to provide the resources necessary to oversee the TIGER grant
projects. Specifically, FRA's Office of Passenger and Freight Programs, which
manages FRA's TIGER projects, had a staff of only 4 grants managers charged
with overseeing 8 different programs, including 315 active grants. During our field
work, one grant manager stated that he was monitoring over 100 projects in the
northeast region and that this heavy workload was the reason FRA had not visited
any TIGER projects.

FHWA and FRA Coordination on Rail Projects Did Not Consistently
Address Rail Standards
While some initial coordination occurred between FHWA and FRA on rail
projects, FHWA and FRA grant agreements contained different requirements
related to track safety standards. As steward of the TIGER program—which
emphasizes projects with intermodal benefits—OST has the key role in ensuring
that coordination between the OAs takes place. OST's TIGER policy states that
OST will coordinate the administration of the program among the relevant OAs,
but it does not specify under what circumstances or how the OAs should
coordinate with each other on multimodal projects. Without clear guidance on how
the OAs should coordinate, FHWA's Federal Lands Highway Division—the lead
agency on four TIGER rail projects—and FRA did not leverage FRA's technical
experience and expertise on rail systems. FRA's insufficient involvement in design
and construction monitoring creates a risk of noncompliance with safety and other


16
     MARAD's guidance for a site visit report includes findings on administrative, programmatic, and technical issues, as
     well as recommendations and action items.
                                                                                                               12


rail standards that could lead to cost increases and schedule delays if corrective
actions are required later.

When OST transferred four of six rail projects from FRA to FHWA, the FHWA
and FRA Administrators agreed on the importance of coordination. For example,
one of these projects required modifications to existing railway infrastructure,
bridges, and signal systems to separate an intersection of rail tracks operated by
two companies. FRA support is particularly important in areas such as engineering
design review; and FHWA and FRA coordination is critical to ensuring safe
construction, because rail and highway construction projects adhere to different
standards. 17

We reviewed all six TIGER grant agreements for rail infrastructure and found
discrepancies in the requirements that FHWA and FRA included, indicating a lack
of an OST-led centralized process for ensuring that TIGER agreements contain all
necessary requirements. Specifically, the FRA grant agreements include a
requirement that grantees comply with track safety standards for 20 years after
completion of a project. If a grantee does not comply with this requirement, in
accordance with the agreement, it must return grant funds. In contrast, FHWA's
grant agreements for similar rail projects did not include this key provision.

FHWA and FRA provided us copies of correspondence showing their coordination
during the environmental review process, which occurs early in the design phase.
However, neither agency provided evidence of their ongoing coordination on
technical issues related to project design and construction. FHWA officials stated
they have sufficient in-house expertise and that private railroad companies, which
will benefit from these projects, could be relied upon to act in their own interest to
ensure technical issues are resolved. For example, FHWA officials told us they
were relying on a private freight rail company—a subrecipient of the TIGER
funds—to specify and approve requirements related to the rail elements of the
National Gateway project. By relying on the recipient of TIGER funds to oversee
the technical aspects of the project, FHWA limits its ability to ensure the project
complies with the rail standards FRA uses.

CONCLUSION
As the TIGER program has grown to over $3.1 billion since ARRA's passage, the
importance of formalizing a systematic oversight process at the OST and OA
levels has increased significantly. While OST and the OAs focused their prior
efforts on establishing a new program and getting funds obligated to meet tight

17
     FHWA applies standards of the American Association of State Highway and Transportation Officials during
     highway construction projects, while FRA applies standards of the American Railway Engineering and Maintenance
     of Way Association when assessing freight and passenger railroad infrastructure.
                                                                               13


ARRA deadlines, the program has entered a new phase in which greater attention
is needed to build oversight processes that will benefit future TIGER projects and
to establish the framework for a lasting program. OST and the OAs have made
strides in developing policies and practices, but improvements are needed in their
oversight of the TIGER projects that are under construction and their efforts to
monitor and assess the performance of grantees. Management attention on making
such improvements will go a long way in meeting program goals as ARRA-funded
TIGER projects are completed and as TIGER II, III, and IV projects get underway.
By taking action now, the Department will help ensure that the TIGER program
will stimulate the economy and make transportation improvements that have a
significant impact on the Nation, a region, or a metropolitan area.

RECOMMENDATIONS
To improve the continuing TIGER program, we recommend that the Under
Secretary of Transportation for Policy:

1. Establish and implement a formal process to ensure all grant agreements
   include clear schedules, scopes, milestones, and outcome-based performance
   measures that will allow OST to assess a project's progress towards the long-
   term goals of the program.

2. Establish and implement a systematic process for documenting significant
   management decisions involving the program and individual TIGER projects,
   including follow-up actions resulting from meetings with the OAs.

3. Update OST's risk assessments to include an evaluation of the OAs'
   capabilities to manage the TIGER program.

4. Establish a methodology to identify program outcomes from grantee
   performance data for each TIGER project.

5. Establish a comprehensive methodology to aggregate performance measures to
   assess the overall impact of the TIGER program.

6. Require the OAs to fully implement their grant management policies, as
   appropriate.

7. Clarify the TIGER program guidance and grant agreements to indicate under
   what circumstances and by what manner OAs and grantees must collaborate on
   multimodal projects.
                                                                               14


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided OST our draft report on June 19, 2012, and received its response on
August 22, 2012. OST’s response is included in its entirety as an appendix to this
report. OST concurred with recommendations 1, 2, and 6, and we consider OST's
actions taken or planned responsive to our recommendations. Accordingly, we
consider these recommendations resolved but open pending receipt of appropriate
documentation supporting the actions taken.

For recommendation 3, OST partially concurred, stating its revised monitoring
actions in response to recommendation 2 are sufficient. We agree that these
actions would be responsive and consider recommendation 3 resolved but open
pending receipt of documentation supporting OST's revised monitoring activities.

Regarding recommendations 4 and 5, OST partially concurred, but does not
anticipate modifying its performance measures at this “late point in the program.”
OST stated that it will complete the already established performance measure
methodology and report the aggregate results of the individual projects by
July 31, 2013. We recognize the complexity of assessing performance across the
diverse range of TIGER projects. However, OST has yet to demonstrate how the
TIGER projects meet the program’s long-term goals and will deliver the
anticipated benefits that were the basis for each project’s selection. OST's
promised report on the program’s outcomes provides an opportunity to assess the
impact of the TIGER projects and the effectiveness of the performance measures.
Given OST's desire to have the TIGER I performance measurement system
provide useful information to inform future investment decision making, we agree
with its proposed approach. Accordingly, we consider recommendations 4 and 5
resolved but open pending receipt of the methodology used to determine project
results and OST's July 2013 report on project outcomes.

For recommendation 7, OST partially concurred, but questioned the need for
creating formal collaboration requirements between the OAs, even though OST
designed TIGER to fund intermodal, multijurisdictional projects. OST's response
did not specifically discuss the implications of our finding that some FHWA grant
agreements on rail projects did not include the requirements that the grantee
comply with track safety standards for 20 years, a provision included in the FRA
agreements we reviewed. We maintain that when engineering or safety standards
are key elements of project design or construction, more formal collaboration
guidance is warranted to ensure that projects benefit from the expertise of all
relevant OAs. These benefits could come through the revision of OST's TIGER
program guidance to address how agencies should collaborate on projects with
significant intermodal issues, such as the documentation of each OA's review at
                                                                                15


key project milestones. Accordingly, we consider recommendation 7 open and
unresolved until OST provides additional details on what circumstances and by
what manner OAs and grantees must collaborate on multimodal projects,
specifically on those issues with safety-related implications.

ACTIONS REQUIRED
In accordance with follow-up provisions in Department of Transportation
Order 8000.1C, we will close recommendations 1, 2, 3, 4, 5, and 6 after we receive
acceptable documentation of OST's completed actions. For recommendation 7, in
order to fully assess the adequacy of the OST response, we request additional
information within 60 days detailing any safety implications related to our finding
that some FHWA grant agreements on rail projects did not include the requirement
that grantees comply with track safety standards for 20 years and any specific
actions planned to address intermodal collaboration issues.

We appreciate the courtesies and cooperation of the Office of the Secretary of
Transportation,     Federal    Highway     Administration,     Federal     Railroad
Administration, Federal Transit Administration, and the Maritime Administration
during this audit. If you have any questions concerning this report, please call me
at (202) 366-5630 or Gary Middleton, Program Director, at (202) 366-0625.

                                        #

cc: Federal Highway Administrator
    Federal Railroad Administrator
    Federal Transit Administrator
    Maritime Administrator
    DOT Audit Liaison, M-1
                                                                                 16



EXHIBIT A. SCOPE AND METHODOLOGY
To address our audit objectives we assessed Office of the Secretary of
Transportation (OST) and Operating Administrations' (OA) policies, procedures,
and practices for administering the Transportation Investment Generating
Economic Recovery (TIGER) Discretionary Grant Program. Our assessment
evaluated the effectiveness of OST's management of the TIGER program,
including the performance measures for determining economic and transportation-
related impacts. We also assessed the OAs' policies and practices established for
the oversight of their respective TIGER projects.

We interviewed OST officials and officials from FHWA, FRA, FTA, and
MARAD; examined TIGER program policies and procedures; evaluated projects;
and conducted site visits to five TIGER projects from our sample. We conducted
interviews to determine how key officials in the management and oversight of the
TIGER program are meeting their responsibilities. We obtained documentation to
verify that these efforts are occurring. In addition, we determined how OST
assigned performance measures to each of the grants; how OST obtained data to
report on these measures; and inquired as to how OST plans to use the
performance data.

In addition to ongoing contact with OST, we assessed whether the OAs were
coordinating effectively with senior Department officials and developed effective
methods for tracking and reporting on TIGER program results and their effect on
the Nation's infrastructure and economy. We determined whether the OAs
implemented appropriate strategies to oversee the TIGER grant projects, while
following relevant OA and DOT policies and procedures. We also reviewed
information the OAs collected and analyzed in support of OST's evaluation of the
program. We also examined policies, procedures, and practices for other
discretionary grant programs and identified best practices.

In coordination with the OIG statistician, we selected a statistical sample of 14 of
51 TIGER projects for in-depth review during the verification phase of the audit.
Our sample included at least one project in each of the OAs (FHWA, FRA, FTA,
and MARAD) that are providing grant oversight. For each of these projects, we
verified that the OAs were conducting oversight activities in accordance with the
TIGER program policies and procedures. We collected relevant documentation on
each project and conducted interviews in person, via telephone, or teleconference
with OA staff at DOT Headquarters, applicable regional offices, and grantees. We
also consulted with OIG engineering and economist staff on technical issues, and
with an OIG legal counsel on the legal sufficiency of TIGER grant agreements and
related issues.



Exhibit A. Scope and Methodology
                                                                              17


We conducted site visits to projects within our sample and administered by each
OA and FHWA's Federal Lands Highways Division. The locations for our site
visits were based on project activity as determined by the level of expenditures
and we did not make projections to each OA based on site visits. We assessed the
OAs' oversight of these projects by examining specific project elements, such as
whether the project is on schedule and within budget. We determined whether
schedule and budget modifications were adequately justified, as well as whether
performance measures were applicable to the project and accurately reported. We
did not examine grantee compliance with other Federal programs that might be
providing funding to a project we selected.

We conducted our work from November 2010 through June 2012 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




Exhibit A. Scope and Methodology
                                                                                                      18

 EXHIBIT B. TIGER I PROJECTS REVIEWED

                                                                                                Site
 Mode          Project Name                                Amount Obligated State               Visits
               National Gateway Freight Rail
 FHWA          Corridor                                        $98,000,000.00 OH                Yes
               Indianapolis Bicycle &
 FHWA          Pedestrian Network                              $20,500,000.00 IN                 No
               Alameda Corridor East: Colton
 FHWA          Crossing                                        $33,800,000.00 CA                 No


 FHWA          Bella Vista Bypass                              $10,000,000.00 AR                 No
                                                                              KY-
               Appalachian Regional Short                                     TN-
 FHWA          Line Rail Project                               $17,551,028.00 WV                 No
               Black River Bridge
 FHWA          Replacement                                     $30,000,000.00 MI                 No
               Beartooth Highway
 FHWA          Reconstruction Project                           $6,000,000.00 WY                 No
               Kansas City Transit Corridors &                                KS-
 FTA           Green Impact Zone Project                       $50,000,000.00 MO                 No


 FTA           Downtown Dallas Streetcar                       $23,000,000.00 TX                 No
               Fitchburg Commuter Rail
 FTA           Extension & Wachusett Station                   $55,500,000.00 MA                Yes
               Quonset Wind Energy &
 MARAD         Surface Transportation Project                  $22,300,000.00 RI                Yes
               Port of Gulfport Rail
 MARAD         Improvements                                    $20,000,000.00 MS                 No


 FRA           Fast Track New Bedford                          $20,000,000.00 MA                Yes


 FRA           Moynihan Station, Phase 1                       $83,000,000.00 NY                 No
Source: Information provided by OST and the OAs and traced to individual TIGER grant agreements.
Note: We also conducted a site visit to FHWA's Otay Mesa Port of Entry I-805/SR-905 Interchange project, in
California, which was awarded $20,200,000 of TIGER I funds.




  Exhibit B. TIGER I Projects Revi ew ed
                                                                                   19



  EXHIBIT C. TIGER PROJECT PERFORMANCE MEASURES
                                              Reporting Frequency and
Category Measures                             Timing
Usage    Before/after annual average tons     Average daily value for the year
         handle/day                           before the project and then
                                              quarterly for 3 years starting 1
                                              year after project completion.
          Before/after annual average daily
          gross ton-miles (GTM)


          Before/after annual average.
          container lifts per day(TEUs)


          Before/after inbound & outbound     Annual TEUs for the year before
          container mode split                the project and then quarterly for
          Before/after annual average         3 years starting 1 year after
          annual containers transported on    project completion.
          lines (TEUs)
          Before/after transit passenger      Daily counts for a typical
          miles and hours of travel           weekday (while schools are in
          Before/after transit passenger &    session), Saturday and Sunday
          non-passenger counts                1 year before the project and
          Before/after transit facility       then again 2 years after the
          passenger & non-passenger           project opens for revenue
          counts                              operations.
          Before/after transit rider          Representative of typical
          characteristics                     weekday while school is in
                                              session 1 year before project
                                              and then again 2 years after
                                              project opens for revenue
                                              operations.
          Before/after average monthly        Average monthly count (using
          bike and/or pedestrian users at     minimum 3 day time periods)
          key locations                       collected before the project and
                                              then yearly for 3 years starting 1
                                              year after project completion.
          Before/after annual average daily   ADT and ADTT for the year
          traffic (ADT) and average daily     before the project and then
          truck traffic (ADTT) counts         quarterly for 5 years after the
                                              project opens for operation
                                              under normal conditions.




  Exhibit C. TIGER Pr oject Performance Measures
                                                                                                         20


                                                              Reporting Frequency and
 Category Measures                                            Timing
 Operations Before/after annual average                       Average daily minutes for the
            daily total train delay (minutes)                 year before the project and then
            Before/after annual average                       quarterly for 3 years after the
            daily total (all vehicles) vehicle                project opens for operation
            delay at crossings                                under normal conditions.
            Before/after transit service level                Data for one typical weekday
                 Before/after facility service level          (while school is in session),
                                                              Saturday and Sunday 1 year
                                                              before the project and then
                                                              again 2 years after the project
                                                              opens for operations under
                                                              normal conditions.
                 Before/after annual average                  Average hourly (or peak & off-
                 hourly (or peak & off-peak)                  peak) values for the year before
                 vehicle travel time                          the project and then quarterly for
                 Before/after annual average                  3 years after the project opens
                 hourly (or peak & off-peak)                  for operations under normal
                 buffer index                                 conditions.
 Safety          Before/after annual crash rates              Annual rates for 5 years prior to
                 by type/severity                             the project and then quarterly for
                 Before/after annual non-vehicle              5 years after the project opens
                 (bike or pedestrian) crash rates             for operation under normal
                 by type/severity                             conditions.
 State of        Before/after average monthly                 Monthly slow orders and
 Good            slow order miles and annual                  average daily delay minutes for
 Repair          average daily delay minutes due              the year before the project and
                 to slow orders                               then quarterly for 3 years
                                                              starting 1 year after project
                                                              completion.
                 Before/after bridge condition                Condition rating for the year
                 (Sufficiency Rating)                         before the project and then
                                                              yearly for 5 years after the
                                                              bridge project opens for
                                                              operation under normal
                                                              conditions.
                 Before/after annual road                     Annual lane-hours for the year
                 closure/lost capacity time (lane-            before the project opens for
                 hours)                                       operation under normal
                                                              conditions.
Source: OST's TIGER Performance Measurement Plan, June 28, 2010.
Note: These measures represent a menu of industry standard metrics. Modal Administrators and grant recipients
may choose to use these metrics or negotiate measures more appropriate for specific projects.




    Exhibit C. TIGER Pr oject Performance Measures
                                                              21



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Gary Middleton                          Program Director

Jay Swartzbaugh                         Project Manager

P. David McBride                        Senior Analyst

Shirell Butcher                         Auditor

Jamila Mammadova                        Analyst

Harriet E. Lambert                      Writer-Editor

Anne-Marie Joseph                       Engineer

Petra Swartzlander                      Senior Statistician

Fritz Swartzbaugh                       Associate Counsel

Kang Cao                                Economist




Exhibit D. Major Contributors to This Report
                                                                                           22



APPENDIX. AGENCY COMMENTS



U.S. Department of            Acting Under Secretary for Policy        1200 New Jersey Ave., SE
Transportation                                                         Washington, DC 20590

Office of the Secretary
of Transportation

                                        August 22, 2012




MEMORANDUM TO:                Joseph W. Comé
                              Assistant Inspector General for
                              Highway and Transit Audits


FROM:                         Polly Trottenberg
                              Acting Under Secretary for Policy
SUBJECT:                      Management Response to OIG Draft Report on TIGER
                              Discretionary Grant Program


      In February 2009, Congress enacted the American Recovery and Reinvestment Act
      (Recovery Act) as an immediate measure to address the Nation’s economic crisis. The
      Recovery Act included $1.5 billion for the Office of the Secretary (OST) to make
      multimodal discretionary grants to surface transportation projects of national and regional
      significance. The Recovery Act included specific deadlines that required the Department
      to create this new discretionary grant program, run a nationwide competition, award
      grants, and obligate the funds within relatively short time frames.
      The Department responded by expeditiously creating the Transportation Investment
      Generating Economic Recovery (TIGER) program, which included outcome-driven,
      transparent, objective processes for selecting meritorious projects that would foster job
      creation, achieve the Department’s strategic goals, leverage non-Federal dollars, and
      boost partnerships and innovation, all while reinvesting in America’s transportation
      infrastructure. The TIGER program built an interdisciplinary and multimodal framework
      for collaboration drawing upon the expertise of OST, the operating administrations
      (OAs), other Federal agencies, state transportation departments, transit agencies, and
      local governments.
      The TIGER Discretionary Grant program was developed and implemented with
      remarkable speed and accountability in accordance with all statutory requirements and
      deadlines. It has proven tremendously successful in selecting and funding important
      transportation projects, including some beyond the reach of existing funding mechanisms,
      such as major multi-state freight networks across the nation. Congress recognized and
      endorsed the merits of our approach by providing funding for three subsequent rounds of
      TIGER – for a total of $3.1 billion.


Appendix. Agency Comments
                                                                                      23


   Creating an innovative multimodal transportation grant program on a very tight timeline
   was an extraordinary challenge that at times required simultaneous program design and
   implementation. The Department built the TIGER program using the best current grant
   competition, evaluation, and oversight practices, including extensive use of benefit-cost
   analysis. The short timeframes included in the Recovery Act catalyzed the Department’s
   use of this innovative approach to program design in contrast to traditional sequential
   methods of planning, design, implementation, monitoring, and oversight. To meet these
   challenges, the Department established a critical path of first designing those elements
   necessary early in the process, implementing them, and subsequently designing those
   aspects needed later.
   We are pleased with the OIG draft report’s recognition that the TIGER program generally
   adhered to best practices in grant management. The Department is continually refining
   its approach and is intent on improving the program, as it has demonstrated in subsequent
   rounds of program implementation. We intend to make good use of the information in
   the OIG report as we continue to administer the TIGER program.
   TIGER Program Focused on Innovative Projects
   The TIGER program is particularly innovative from a functional perspective—what it
   does—and from an operational perspective—how it works. TIGER is a competitive
   discretionary grant program that enables the Department to address important
   transportation issues including existing programmatic gaps created by traditional formula
   based appropriation funding silos, which are driven by mode. Furthermore, while most
   Federal transportation funding flows to State DOTs and major transit agencies, TIGER is
   one of the only transportation programs where localities can apply directly for, and be
   direct recipients of, Federal funding for projects often with local and regional priorities.
   TIGER Uses Existing Expertise and Processes
   The TIGER program drew personnel and expertise from existing programs within the
   Department and made use of established grant management and oversight mechanisms.
   As a result, once selected, TIGER projects are administered and overseen by OAs
   without the need to create new layers of bureaucracy. OST’s role is one of monitoring the
   OAs and not one of adding additional layers of oversight on top of the OA oversight.
   The Congress clearly anticipated lean and efficient program operation when it afforded
   the TIGER program only 1/10th of 1 percent of overall program funding for conducting
   oversight. OST fulfilled those expectations by creating a cost-efficient, transparent and
   multimodal program that made the best use of existing programmatic expertise and
   processes without creating duplicate processes or unnecessary overhead.
   While OST is actively engaged in monitoring the administration of the TIGER grants,
   DOT is driven by economy and prudence to make the best use of existing agency
   resources through a strong partnership between OST and the OAs for program
   implementation. This partnership utilizes OST’s expertise in evaluating projects across
   all transportation modes and leverages the OAs’ experience in managing grants.
   During the grant administration phase, OST carefully monitors OA projects through bi-
   weekly meetings, monthly project status reports from the OAs, quarterly and annual
   reporting by the grantees, and a defined chain of command for elevating any issues that
   may arise. This combination of partnership and monitoring makes the best use of
   expertise in each organization, minimizes overhead costs, and maintains a thorough and
   effective flow of information.




Appendix. Agency Comments
                                                                                                               24


         The OIG draft report approaches OST’s role from the perspective of traditional
         government operations: devote more staff to create new oversight systems in OST to
         check the work of the people in the OAs who are overseeing work in the field. While
         OST is carefully monitoring the OAs’ progress, it has no budgetary authority or intention
         to add more staff to duplicate the work that the OAs have a long-standing record of
         demonstrated effectiveness in accomplishing. Instead, OST has been judicious in
         limiting monitoring to complement the OAs’ activities. Furthermore, OST already has
         longstanding policies for overseeing OA activities, including OA administration of
         billions of dollars of grants through existing programs.
         Operating Administrations Managing TIGER Projects Effectively
         The vast majority of Recovery Act TIGER grants are being administered by
         organizations in the Department with extensive experience in grants management. More
         than 80 percent of the projects are being administered by FTA and FHWA, which have
         proven systems and processes for providing effective grant management along with
         decades of experience.
         Both FTA and FHWA have carefully considered the programmatic risks posed by TIGER
         projects, and have fine-tuned their oversight accordingly. FTA recognized the risks of a
         new, discretionary grant program with rapid grant awards and expedited implementation
         milestones by implementing additional oversight. For example, FTA mitigated project
         risk by making Project Management Oversight Contractor (PMOC) resources available to
         every TIGER I project it administered regardless of the dollar value or risk assessment
         associated with each project. Even though TIGER projects were typically smaller than
         those FTA would typically utilize its PMOC resources for, FTA implemented proactive
         measures to help ensure the grantees followed sound project management practices in
         developing and implementing the projects.
         Similarly, FHWA recognized the benefit of supplemental oversight for TIGER projects,
         and included them within the scope of its National Review Team (NRT) efforts. The
         NRT used an independent, multi-disciplinary team of experts to enhance Recovery Act
         project risk management and oversight efforts in a corporate and strategic manner. By
         conducting on-site reviews of quality assurance, financial controls, and data quality and
         integrity, the NRT enhanced FHWA’s stewardship and oversight on TIGER and other
         Recovery Act funded projects. FHWA incorporated TIGER as a specific focus area in its
         Recovery Act Risk Management Plan and continues to carefully track the results of the
         NRT reviews. As of July 3, 2012, the NRT finalized 48 TIGER site visits consisting of
         61 reviewed risk areas.
         While FRA and MARAD have comparatively less experience in grants management,
         each has made strong progress in building the processes and expertise necessary for
         effective grant management. As detailed in the Department’s response to another OIG
         report in the process of issuance, 1 similar to the TIGER program, the Department’s High
         Speed Intercity Passenger Rail Grant program had to be built as it was hurtling down the
         tracks at high speed. FRA has already demonstrated its capability to effectively manage
         risks and continues to refine its grants management practices. Similarly, MARAD has
         been refining its processes and is conducting effective grants management activities. It
         has also demonstrated its capability to effectively monitor and oversee the completion of
         its TIGER program projects.



1
    The OIG report, “Completing a Grants Management Framework Can Enhance FRA’s Administration of the HSIPR
     Program,” will incorporate a detailed management response describing the progress of FRA’s Grant Processes for
     High Speed Rail.


Appendix. Agency Comments
                                                                                  25


   TIGER’s unique, multimodal evaluation and oversight arrangement also provided an
   environment conducive to knowledge sharing among the OAs. For example, MARAD
   made use of best practices learned from FHWA’s grant oversight structure and avoided
   the need to reinvent similar processes. MARAD has continued to refine these practices as
   appropriate for its projects, and as recently as June 15, 2012, issued an updated Grant
   Administration Manual.
   OST Uses Feedback and Stakeholder Input to Strengthen Program
   Since the Recovery Act TIGER program, which serves as the focus for this OIG draft
   report, the Department has implemented three additional rounds of TIGER and has
   worked hard to continuously improve the program’s design, implementation, execution
   and monitoring. TIGER has made use of lessons learned to implement useful
   improvements, including:
         • Decision Tracking – the TIGER program now has a system for tracking all
             material decisions made by the Under Secretary regarding TIGER grants and
             TIGER funds. This system, which was put in place after the third round of
             TIGER, will create a searchable electronic record of all material decisions made
             for the program.
         • Document Review and Approval Tracking – all OAs participating in the
             TIGER program are now using a SharePoint system for document review and
             tracking to ensure that each grant agreement developed under the TIGER program
             is processed expeditiously and completely by all necessary organizations.
         • Collaborative Work Groups – OST created collaborative working groups to
             enhance OST and modal coordination in key areas. For example, a working group
             that includes Counsel from OST, FHWA, FRA, FTA, and MARAD is currently
             analyzing best practices across the modal administrations for managing the
             purchase and disposition of equipment using grant funds. These groups will
             continue to work collaboratively on cross-cutting issues.
   The OIG work pursuant to this draft report has also provided useful input for refining
   TIGER grant processes. For example, OST is conducting risk-based site visits to validate
   information provided by the OAs and grantees. OST will continue to make the best use of
   all available information to further refine the TIGER program throughout each phase of
   implementation.
   TIGER Performance Measures Will Inform Future Investment Decision making
   The TIGER program investment framework incorporates multiple innovative,
   performance-driven policies. These efforts focus on aligning investments with key
   national objectives, encouraging grantees to produce robust economic analyses
   demonstrating that their projects are expected to produce net benefits, and implementing
   a performance measurement program by which grantees collect data and report on the
   performance of their projects. This focus on performance is unprecedented for a
   multimodal DOT program and reflects DOT’s determination to introduce reforms
   through TIGER that can positively impact DOT’s broader investment practices.
   Working with experts in the field of transportation economics and performance, DOT has
   developed sets of measures to better capture project benefits that avoid placing undue
   burdens on grantees, many of whom lack the resources and technical expertise to engage
   in sophisticated analytics. DOT also decided not to compel grantees to achieve pre-
   determined targets, but rather to focus on collecting data that could inform future
   investment decision-making processes.




Appendix. Agency Comments
                                                                                     26


   The TIGER program emphasizes managing infrastructure investments during
   construction and tracking performance once the project opens for use. Each grantee
   collaborates with DOT to develop a project-specific performance measurement plan, and
   report on achieving the benefits identified in the application.
   TIGER projects can be found in every corner of the country, from the densest urban
   environments to the most rural tribal areas, and include multi-state freight rail networks
   that cost hundreds of millions of dollars to build, transit systems and streetcars, highway
   and bridge improvements, port infrastructure and bicycle/pedestrian networks, As such,
   OST is focused on individual projects achieving their stated outcomes, which include
   safety, economic competitiveness, state of good repair, livability, and environmental
   sustainability. OST does not believe it is feasible to create a consolidated project
   performance evaluation system that can adequately convey outcome information
   spanning this diverse set of projects within the existing data-gathering and analytic
   capabilities of typical TIGER grantees.
   RECOMMENDATIONS AND RESPONSES
   Recommendation 1: Establish and implement a formal process to ensure all grant
   agreements include clear schedules, scopes, milestones, and outcome-based performance
   measures that will allow OST to assess a project’s progress towards the long-term goals
   of the program.
   Response: Concur. We agree that grant agreements should include clear schedules,
   scopes, and milestones, and have devoted considerable effort, along with the OAs, to
   achieve this objective. As described above, the Department has implemented refined
   processes for moving grant agreements through review to ensure complete and consistent
   documentation. While we will continue to monitor the efficacy of this system and make
   improvements as needed, we consider the actions taken responsive to the
   recommendation and ask that it be closed.
   Recommendation 2: Establish and implement a systematic process for documenting
   significant management decisions involving the program and individual TIGER projects,
   including follow-up actions resulting from meetings with the OAs.
   Response: Concur. As described above, the Department has implemented refined
   processes for documenting significant management decisions. While we will continue to
   monitor the efficacy of this system and make improvements as needed, we consider the
   actions taken responsive to the recommendation and ask that it be closed.
   Recommendation 3: Update OST’s risk assessments to include an evaluation of the
   OAs’ capabilities to manage the TIGER program.
   Response: Concur in part. Through its regular monitoring activities and interactions with
   the OAs, OST is fully apprised of the status of OA capabilities to manage grants. More
   than 80 percent of TIGER I projects were within organizations with mature, fully
   developed, world class grant management systems in place. Processes were augmented
   with additional oversight resources in FTA, and added to the National Review Teams in
   FHWA. The remaining 20 percent are within organizations that have rapidly developed
   their grant management capabilities based on best practices and have issued recent
   updates to their processes over the last several months. While OST will continue to
   monitor, and work with all the grant management agencies participating in the TIGER
   program, we see no further benefit to be gained by conducting a formal risk management
   exercise and request that this recommendation be closed.
   Recommendation 4: Establish a methodology to identify program outcomes from
   grantee performance data for each TIGER project.



Appendix. Agency Comments
                                                                                      27


   Response: Concur in part. As discussed earlier in this response, the primary purpose of
   DOT’s performance measurement program is to ensure that grantees are collecting and
   reporting information about the performance of their projects. As recognized in the OIG
   draft report, consolidating the results from a diverse set of 51 projects would, at best, be
   challenging. The TIGER I performance measurement program is intended to provide
   useful information and help inform future investment decision-making processes.
   Overall, TIGER has established a program to collect useful programmatic information
   that exceeds the requirements and expectations of the Recovery Act while not unduly
   burdening grantees. The Department will ensure that the established methodology is fully
   implemented and completed as planned, but does not anticipate modifying the scope or
   nature of the measures at this late point in the program, and requests that this
   recommendation be closed.
   Recommendation 5: Establish a comprehensive methodology to aggregate performance
   measures to assess the overall impact of the TIGER program.
   Response: Concur in part. As discussed earlier in this response, the Department
   established programmatic measures that exceed the expectations and requirements of the
   Recovery Act and will provide useful information about the utility of our actions and
   inform future decision making. At this late juncture, the Department does not intend to
   modify its programmatic metrics, though it does intend to make full and best use of the
   data it derives from program implementation, both with regard to the effectiveness of
   program implementation and to inform future decision making. Once the vast majority of
   Recovery Act TIGER projects are complete, the Department intends to consolidate the
   results of the individual projects, and report those results by July 31, 2013.
   Recommendation 6: Require the OAs to fully implement their grant management
   policies, as appropriate.
   Response: Concur. Grant management policies are established for the purpose of guiding
   processes by establishing clear expectations. The TIGER Program Policies and
   Procedures make it clear that each OA is responsible for assuring that is has all of the
   necessary policies, systems, and controls in place to administer the TIGER discretionary
   grants for which they are responsible. We consider the existing requirements, policies and
   expectations to be sufficient. OST will continue to monitor actions by the OAs and
   ensure that they are following our Policies and Procedures that require the
   implementation of their grant management policies to TIGER Grants. No further action is
   planned with specific regard to this recommendation and we request that it be closed.
   Recommendation 7: Clarify the TIGER program guidance and grant agreements to
   indicate under what circumstances and by what manner OAs and grantees must
   collaborate on multimodal projects.
   Response: Concur in part. The Department will continue to actively monitor OA
   performance and convene forums for multimodal collaboration and information sharing.
   However, the utility for creating formal collaboration requirements is not apparent. OST
   oversees the implementation of all TIGER grants, identifies projects that need
   collaboration, and calls the modes to work together with OST as needed. Because of the
   varied and innovative nature of the projects funded, it is not possible to identify in
   advance all of the circumstances that would require OA partnership. In fact, sometimes
   the need for collaboration comes on single mode projects where best practices in other
   modes can improve outcomes. OST will use its oversight role to follow all grants that
   require OAs to work together and improve collaboration. While we will continue to
   monitor the efficacy of this system, and make improvements as needed, we consider the
   actions taken responsive to the recommendation and ask that it be closed.



Appendix. Agency Comments
